            OFFICE OF
     THE INSPECTOR GENERAL

 SOCIAL SECURITY ADMINISTRATION


        SINGLE AUDIT OF THE
     MICHIGAN DEPARTMENT OF
          HUMAN SERVICES
    FOR THE 2-YEAR PERIOD ENDED
         SEPTEMBER 30, 2004

      March 2006   A-77-06-00010




  MANAGEMENT
ADVISORY REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                    SOCIAL SECURITY

MEMORANDUM


Date:   March 27, 2006                                                              Refer To:

To:     Candace Skurnik
        Director
        Audit Management and Liaison Staff

From:   Inspector General

Subject: Management Advisory Report: Single Audit of the Michigan Department of Human
        Services for the 2-Year Period Ended September 30, 2004 (A-77-06-00010)


        This report presents the Social Security Administration’s (SSA) portion of the single
        audit of the Michigan Department of Human Services (DHS), for the 2-year period
        ended September 30, 2004. Our objective was to report internal control weaknesses,
        noncompliance issues, and unallowable costs identified in the single audit to SSA for
        resolution action.

        The Michigan Auditor General performed the audit. Results of the desk review
        conducted by the Department of Health and Human Services (HHS) have not been
        received. We will notify you when the results are received if HHS determines the audit
        did not meet Federal requirements. In reporting the results of the single audit, we relied
        entirely on the internal control and compliance work performed by the Auditor General.
        We conducted our review in accordance with the Quality Standards for Inspections
        issued by the President’s Council on Integrity and Efficiency.

        For single audit purposes, the Office of Management and Budget assigns Federal
        programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability
        Insurance (DI) and Supplemental Security Income (SSI) programs are identified by
        CFDA number 96. SSA is responsible for resolving single audit findings reported under
        this CFDA number.

        The Michigan Disability Determination Services (DDS) performs disability
        determinations under SSA’s DI and SSI programs in accordance with Federal
        regulations. The DDS is reimbursed for 100 percent of allowable costs. DHS is the
        Michigan DDS’ parent agency.
Page 2 – Candace Skurnik


The single audit reported:

•   DHS did not follow State laws, policies, and procedures for procuring goods or
    services for the administration of Federal awards. Specifically, DHS did not maintain
    documentation to support the opportunity to review and comment on contracts when
    applicable (Attachment A, Page 4, item e). Further, DHS did not maintain
    documentation that direct human and medical services procurement procedures
    received proper approval (Attachment A, page 5, item f). The corrective action plan
    indicated that DHS is in the process of reengineering the contracting process to
    improve efficiency and address contract training issues (Attachment A, page 20).

•   DHS's internal controls over financial reporting were not sufficient to ensure the
    Schedule of Expenditures of Federal Awards (SEFA) was reliable, complete, and
    accurate (Attachment A, pages 10 through 12). The corrective action indicated that
    DHS is developing a new tracking/payment system that will automate the
    reconciliation of expenditures with the Michigan Administrative Information Network
    (Attachment A, page 19).

•   DHS did not ensure a formal contingency plan for several of its critical automated
    information systems was established and implemented. As a result, DHS could not
    ensure business would not be interrupted or critical financial and client data would
    not be lost in the event of a disaster (Attachment A, pages 16 through 18). The
    corrective action plan indicated that the Department of Information Technology and
    DHS will coordinate their efforts to comply with disaster recovery plan requirements
    (Attachment A, pages 19 and 20).

We recommend that SSA:

1. Ensure that DHS establishes sufficient procedures to obtain and document the
   review of DDS-related contracts and procurements.

2. Verify that the State took appropriate actions to ensure the SEFA is accurately
   prepared.

3. Ensure DHS establishes and implements a formal disaster recovery plan to follow in
   the event of a disaster that impacts DDS operations.

The single audit also identified that internal controls were not in place to ensure that
cash draws for Federal programs were made in accordance with the Cash Management
Improvement Act (CMIA) agreement, and that complete and accurate information was
submitted in the annual CMIA report (Attachment B, pages 1 through 4). Although this
finding was not specifically identified to SSA, it may have an impact on DDS operations.
I am bringing this matter to your attention as it represents a potentially serious service
delivery and financial control problem for the Agency.
Page 3 – Candace Skurnik


Please send copies of the final Audit Clearance Document to Shannon Agee and
Rona Lawson. If you have questions contact Shannon Agee at (816) 936-5590.




                                      S
                                      Patrick P. O’Carroll, Jr.

Attachments
Attachment A
 Page 1 of 20
Attachment A
 Page 2 of 20
Attachment A
 Page 3 of 20
                                                                                 Attachment A
                                                                                  Page 4 of 20




                                                                             1




1
 According to the auditor, although the review of the contracts was not properly documented, the
costs of consultative examination services provided through the contract were allowable.
Therefore, the $2,990 in questioned costs identified in the finding do not need to be returned to
SSA.
Attachment A
 Page 5 of 20
Attachment A
 Page 6 of 20
Attachment A
 Page 7 of 20
Attachment A
 Page 8 of 20
Attachment A
 Page 9 of 20
Attachment A
Page 10 of 20
Attachment A
Page 11 of 20
Attachment A
Page 12 of 20
Attachment A
Page 13 of 20
Attachment A
Page 14 of 20
Attachment A
Page 15 of 20
Attachment A
Page 16 of 20
Attachment A
Page 17 of 20
Attachment A
Page 18 of 20
Attachment A
Page 19 of 20
Attachment A
Page 20 of 20
Attachment B
  Page 1 of 4
Attachment B
  Page 2 of 4
Attachment B
  Page 3 of 4
Attachment B
  Page 4 of 4
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
